HHS/OIG-Audit--"Review of the Fiscal Year 1992 Financial Statements for the Public Health Service's Service and Supply Fund, (A-15-93-00010)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Fiscal Year 1992 Financial Statements for the Public Health
Service's Service and Supply Fund," (A-15-93-00010)
August 31, 1993
Complete Text of Report is available in PDF format
(3.72 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report prepared by KPMG Peat Marwick, independent public accountants,
presents the results of their audit of the Public Health Service's (PHS) Service
and Supply Fund (Fund) financial statements for the Fiscal Year ended September
30, 1992. The independent auditors did not express an opinion on the Fund's
statement of financial position because they were not able to satisfy themselves
regarding the reported balances for all of the Fund's assets and equity and
65 percent of its liabilities. Also, the Fund did not perform certain internal
control procedures and maintain adequate accounting records. These conditions
also precluded the auditors from expressing an opinion on the Fund's statements
of operations, cash flows, and budget and actual expenses. The report contains
recommendations for significantly improving financial management of the Fund.